   United States Department of Agriculture
   Office of Inspector General




Review of Appeals of Humane Handling
Noncompliance Records




                                             Audit Report 24601-0002-31
                                             April 2012
                        United States Department of Agriculture
                               Office of Inspector General
                                Washington, D.C. 20250




DATE:         April 5, 2012

AUDIT
NUMBER:       24601-0002-31

TO:           Alfred V. Almanza
              Administrator
              Food Safety and Inspection Service

ATTN:         William C. Smith
              Assistant Administrator
              Office of Program Evaluation, Enforcement and Review

FROM:         Gil H. Harden
              Assistant Inspector General
                for Audit


SUBJECT:      Review of Appeals of Humane Handling Noncompliance Records


Attached is a copy of the final report on the subject audit. On March 22, 2012, we were
notified by the Food Safety and Inspection Service that they generally agreed with the
finding and an exit conference or a formal response was not necessary for the subject draft
audit report. Since there were no formal recommendations in the report, no further response
for this audit is necessary.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Additional Grant Justifications, Violation Descriptions, and
Tracking and Monitoring ........................................................................................5
   Finding 1: FSIS Followed Procedures to Address Appeals, But Can
   Improve How It Justifies Appeal Decisions, Describes Non-Compliance
   Violations, and Tracks and Monitors Appeals’ Status .....................................5
Scope and Methodology...........................................................................................8
Abbreviations .........................................................................................................10
Review of Appeals of Humane Handling Noncompliance Records

Executive Summary

The Humane Methods of Slaughter Act requires that livestock be slaughtered only by humane
methods.1 The United States Department of Agriculture (USDA) Food Safety Inspection Service
(FSIS) is charged with enforcing the Act’s provisions for all food animals slaughtered in
USDA-inspected plants. The Act covers cattle, calves, horses, mules, sheep, goats, swine, and
other livestock.2

FSIS inspectors in the plants are responsible for verifying that livestock establishments are
complying with the Act. When inspectors observe a humane handling violation, they issue a
noncompliance record or take other enforcement actions to suspend plant operations. Regardless
of which action FSIS takes when a noncompliance is observed, regulations allow establishments
to appeal any inspection decision.3

On December 22, 2010, the USDA Under Secretary for Food Safety requested the Office of
Inspector General (OIG) to review humane handling noncompliance records and other
enforcement actions that were subsequently appealed by plant management to higher FSIS
management levels. Our review covered humane handling appeals from January 1, 2007
through December 31, 2010. Our objectives were to (1) determine whether FSIS adequately
addressed appeals of humane handling noncompliance records and other enforcement actions;
(2) determine if FSIS’ procedures for processing appeals of humane handling noncompliance
records were followed and if they are adequate; and (3) identify any trends on how humane
handling noncompliance records were resolved. In performing the audit, we specifically
analyzed the appellate decisions and supporting documents for trends in consistency of granting
or denying appeals for similar infractions, timeliness of FSIS’ response, and accuracy of
information provided to us by FSIS data personnel.

Based on our review of the 138 humane handling noncompliance records and the 13 enforcement
actions that establishments appealed, we determined that FSIS’ procedures were adequate and
FSIS followed its established procedures to appropriately address the appeals we reviewed. Our
analysis of the data also did not reveal any negative trends or systemic problems related to
inconsistent treatment or unfounded actions to grant or deny appeals in particular establishments
across the country. However, we did find that FSIS can improve how it tracks and monitors
appeals of humane handling noncompliance records by citing the regulatory justification for any
appeals that it grants; ensuring that noncompliance records are written adequately to support the
violation; and tracking the time it takes to process appeals.



1
  7 U.S.C. 1901 dated February 1, 2010.
  Additional regulations for humane slaughter requirements are found in 9 CFR 313 dated January 1, 2010.
2
3
  9 CFR 306.5 dated January 1, 2010.

                                                                       AUDIT REPORT 24601-0002-31          1
OIG acknowledges that FSIS has taken recent steps to improve inspectors’ understanding of
humane handling requirements and educate them on the procedures to follow when a
noncompliance is observed. Specifically, FSIS has issued additional guidance clarifying humane
handling requirements,4 and has also required additional humane handling basic training for FSIS
personnel, which will provide clarification and guidance for its inspection staff. FSIS is also
currently implementing a new automated system, the Public Health Information System (PHIS),
which should provide FSIS additional tools to monitor appeals of humane handling
noncompliance records.

We are therefore making no specific recommendations in this report. We do suggest, however,
that FSIS consider how PHIS could be utilized to track and monitor appeals of humane handling
noncompliance records to ensure that (1) decisions to grant appeals are supported by regulation,
(2) noncompliance records are written adequately to support observed violations, and (3) FSIS
responds timely to appeals.




4
    Directive 6900.2 Rev 2 dated August 15, 2011.


2        AUDIT REPORT 24601-0002-31
Background and Objectives

Background
FSIS-inspected livestock slaughter establishments are required to meet the requirements of the
Humane Methods of Slaughter Act. In-plant inspectors from FSIS are responsible for verifying
that livestock establishments are complying with the Act.

When inspectors observe a humane handling violation, their first responsibility is to stop the
inhumane treatment and take additional steps when necessary to prevent further inhumane
handling. Inspectors can issue a noncompliance record or take other enforcement actions, such
as suspending inspection activities. A noncompliance record is an official record of
noncompliance with one or more food safety regulatory requirements. Both actions require the
plant to take corrective actions to address and prevent further inhumane treatment. When a
noncompliance record is issued for humane handling, the inspector may place a USDA Reject
Tag on a piece of equipment or a holding area, which prevents the plant from using the tagged
equipment or area of the facility until the noncompliance is addressed, thus preventing further
inhumane treatment. Noncompliance records are recorded in the agency’s Performance Based
Inspection System (PBIS)5, where they can be used to monitor the establishment’s performance
history over time. Multiple noncompliance records may trigger more intense compliance
reviews, such as a Food Safety Assessment6 performed by FSIS district office specialists.
Federal regulations provide plants with the opportunity to appeal any noncompliance record or
enforcement action decision.7

FSIS’ appeal process for noncompliance follows FSIS’ Office of Field Operations8 chain of
command, ensuring that program employees closest to and most familiar with the facts
surrounding the event evaluate the appeal first to minimize response time. The appeals process
also allows a plant to appeal to the next higher level if unsatisfied with the outcome of an
appellate decision. When a noncompliance is appealed, the FSIS official at the next higher level
reviews the inspector’s description of the inhumane action and the establishment’s response to
the allegations. The reviewer determines, based on the documentation, whether the appeal
should be granted or denied. An appeal of a noncompliance record that is granted will be
flagged in PBIS and will no longer be considered a humane handling violation.

On December 22, 2010, the USDA Under Secretary for Food Safety requested OIG to review
appeals of humane handling noncompliance records and other enforcement actions that were
subsequently appealed by plant management to higher FSIS management levels.

5
  PBIS is a software application designed by FSIS to manage its hazard analysis and critical control point
assignment schedules, inspection procedures, and data reporting.
6
  During a Food Safety Assessment, FSIS personnel assess the design and validity of food safety systems.
7
  9 CFR 306.5 dated January 1, 2010.
8
  The Office of Field Operations manages inspection and enforcement activities nationwide, ensuring that
domestically produced meat, poultry, and egg products are safe, secure, wholesome, and properly labeled.

                                                                         AUDIT REPORT 24601-0002-31          3
FSIS is currently implementing the Public Health Information System (PHIS), which is a new
web-based application that will replace PBIS and other applications. FSIS states that PHIS will
help FSIS better collect, consolidate, and analyze data, and thereby improve its overall ability to
protect public health.

Objectives
The objectives of this audit were to: (1) determine whether FSIS adequately addressed humane
handling noncompliance records and other enforcement actions that were challenged by
establishments, (2) determine if FSIS’ procedures for processing appeals of humane handling
noncompliance records were followed and if they are adequate, and (3) identify any trends on
how appeals of humane handling noncompliance records were resolved.




4    AUDIT REPORT 24601-0002-31
Section 1: Additional Grant Justifications, Violation Descriptions,
and Tracking and Monitoring

Finding 1: FSIS Followed Procedures to Address Appeals, But Can Improve
How It Justifies Appeal Decisions, Describes Non-Compliance Violations, and
Tracks and Monitors Appeals’ Status
Overall, we determined that FSIS’ procedures were adequate and that FSIS appropriately
addressed the appeals we reviewed. Our analysis also did not reveal any negative trends or
systemic problems related to inconsistent treatment or unfounded actions to grant or deny
appeals in particular establishments across the country. As a result, we are not making any
recommendations; however, we suggest the following three improvements for how FSIS tracks
and monitors appeals.

        FSIS Granted Appeals without Regulatory Justification

        Of 138 appeals of humane handling noncompliance records, 5 of the 48 granted appeals
        were allowed merely because subsequent corrective actions were taken. 9 However, OIG
        noted that FSIS regulations do not state that appeals of noncompliance records may be
        granted based on subsequent corrective action. Moreover, these cases contradict
        decisions made in other appeals for similar violations.

        For example, one of the five appeals describes how an FSIS inspector observed animal
        handlers chasing animals into the kill alley by shouting and whistling. According to
        Federal regulations, livestock must be driven to slaughter at a normal walking pace and
        with a minimum of excitement and discomfort to the animals.10 After the inspector
        issued a noncompliance record, the establishment appealed, and the appeal was granted
        by the inspector in charge. The inspector in charge did not question the validity of the
        events described in the noncompliance record but did acknowledge that, after discussions
        with the plant’s management and the subsequent actions taken by the establishment, the
        animal handlers’ performance was much improved. In other words, the appeal appears to
        have been granted based solely on corrective actions; namely, the subsequent
        improvement of animal movement by establishment personnel.

        While OIG agrees that the establishment’s improvement is significant, noncompliance
        records are written for present behavior witnessed by the inspector, while corrective
        actions taken are to prevent future occurrences of the observed noncompliance. The
        significance of each record of noncompliance becomes important to identify any possible
        trends of past and future violations. We asked FSIS national officials if there were any

9
  From January 1, 2007 through December 31, 2010, we identified 2,240 humane handling noncompliance records of
which 138 were appealed by establishments.
10
   9 CFR 313.2 dated January 1, 2010.

                                                                     AUDIT REPORT 24601-0002-31            5
           regulation or guidance that allowed an appeal to be granted because of corrective action.
           FSIS officials stated that each appeal is considered based on all pertinent facts.
           FSIS has since issued additional guidance clarifying humane handling requirements,11
           and has also required additional humane handling basic training for FSIS personnel,
           which will provide clarification and guidance for inspection personnel in determining the
           regulatory merits of granting an appeal.

           OIG is not making recommendations on this topic, but suggests that FSIS track and
           monitor the reasons for granting appeals and consider how PHIS can be used to ensure
           each decision to grant relief is adequately supported by regulation.

           FSIS Inspectors Did Not Write Adequate Descriptions of Violations to Support
           Noncompliance Records

           Of the 138 appeals of humane handling noncompliance records, 8 were granted because
           the FSIS inspector’s description of the noncompliance was unclear or inadequate and the
           FSIS personnel at the next level of appeal could not determine if the situation was
           actually a humane handling violation. For example, one supervisor reviewing an appeal
           wrote that he granted the appeal “due to an inadequate description of the noncompliance
           within Block 10 of the NR [noncompliance record]. The noncompliance was not
           apparent with the description provided.” Block 10 is the space within the noncompliance
           record form used to describe the noncompliance observed by FSIS personnel.

           FSIS has recently issued additional guidance clarifying humane handling requirements,12
           and has also required additional humane handling basic training for FSIS personnel,
           which will provide clarification and guidance for inspection personnel. OIG is therefore
           issuing no recommendations, but suggests that FSIS consider how PHIS could be used to
           ensure that noncompliance records are written adequately to support observed violations.

           FSIS Did Not Respond to Appeals Timely

           Although FSIS guidance states that the public health veterinarian, inspector in charge,
           front line supervisor, and district manager should attempt to respond to appeals within
           2 weeks, we found the average time for the FSIS officials listed above to respond to an
           appeal was 28 days (4 weeks). We identified 9 instances where FSIS took 100 or more
           days to respond to an appealed humane handling violation, with the longest time being
           302 days. We determined that, for 61 of the 138 (44 percent) appeals, FSIS took more
           than 2 weeks to respond, and 46 of the 138 (33 percent) took more than 3 weeks.

           FSIS’ district offices explained these delays by stating that responding to appeals is a
           lower priority than performing food safety inspections. OIG does not disagree, but
           suggests that FSIS consider how PHIS could be used to track and monitor the timeliness
           of FSIS’ responses to appeals of humane handling noncompliance records.

11
     Directive 6900.2 Rev 2 issued August 15, 2011.
12
     Directive 6900.2 Rev 2 issued August 15, 2011.


6        AUDIT REPORT 24601-0002-31
In conclusion, OIG believes FSIS can improve how it tracks and monitors appeals of humane
handling noncompliance records by using PHIS to ensure that (1) decisions to grant appeals are
supported by regulation, (2) noncompliance records are written adequately to support observed
violations, and (3) FSIS responds timely to appeals. Specifically, FSIS should consider
addressing these issues when developing reports in PHIS.




                                                            AUDIT REPORT 24601-0002-31           7
Scope and Methodology
Our audit covered the appeals of humane handling noncompliance records and other enforcement
actions from January 1, 2007, through December 31, 2010. We commenced fieldwork in March
2011 at FSIS headquarters and completed our fieldwork in December 2011. To accomplish the
objectives of the audit, we reviewed applicable laws, regulations, FSIS handbooks, FSIS notices
regarding humane handling requirements, and the appeals process. In addition, we obtained and
analyzed data from FSIS in order to identify noncompliance records or other enforcement actions
issued for humane handling violations.

FSIS’ Data Analysis and Integration Group provided OIG a database from PBIS data that
contained all noncompliance records issued by FSIS personnel at slaughter establishments. We
identified 2,240 humane handling noncompliance records and determined that 138 were appealed
by establishments. We reviewed the database for all 138 appealed humane handling
noncompliance records, of which 48 were granted. During our review of the 138 appealed
noncompliance records, we requested additional supporting documentation for 45 appealed
noncompliance records for clarification. In addition, we reviewed humane handling
noncompliance record data to determine if there were any identifiable trends with regards to
appeals of humane handling noncompliance records that were granted, denied, or modified.

To identify other enforcement actions for humane handling violations, we reviewed the
Quarterly Enforcement Reports from January 1, 2007, through December 31, 2010. These
reports provide an overview of humane handling and slaughter procedures in Federally inspected
facilities, including noncompliance records, time spent on humane handling inspections, and
suspensions for the 12 months ending in the quarter published. We identified about 270 other
enforcement actions for humane handling violations and determined there were 13 appeals. We
reviewed all 13 appeals of other enforcement actions for humane handling, of which 2 were
granted.

Fieldwork was performed at the FSIS headquarters office in Washington, D.C., and FSIS district
offices in Minneapolis, Minnesota, and Philadelphia, Pennsylvania. The selection of district
offices was based on the number of appealed humane handling noncompliance records and the
number of appeals that were granted. We did not perform any reviews at slaughter
establishments for this audit.

During our fieldwork, we interviewed FSIS personnel at FSIS headquarters and at two district
offices to determine the process FSIS utilizes to address humane handling noncompliance
records that were appealed by establishments.

We relied on FSIS’ PBIS data stored in its data warehouse to identify our universe of humane
handling noncompliance appeals. In two FSIS district offices, we selected a judgmental sample
for comparing PBIS data to supporting documents and found no discrepancies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

8    AUDIT REPORT 24601-0002-31
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                            AUDIT REPORT 24601-0002-31        9
Abbreviations
FSIS............................. Food Safety Inspection Service
OIG ............................. Office of Inspector General
PBIS ............................ Performance Based Inspection System
PHIS............................ Public Health Information System
USDA.......................... United States Department of Agriculture




10     AUDIT REPORT 24601-0002-31
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (4)
 Director, Planning and Accountability Division

Under Secretary for Food Safety (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
